 U.S. Department of Education
Office of Inspector General




Semiannual Report
     to Congress
           No. 41


   April 1 – September 30, 2000
              INSPECTOR GENERAL'S HOTLINE

Anyone knowing of fraud, waste, or abuse involving Department of Education
funds or programs should call or write the Inspector General's Hotline.


                         THE TOLL-FREE NUMBER IS:

                      1-800-MIS-USED (1-800-647-8733)

                          THE MAILING ADDRESS IS:

                         Inspector General's Hotline
                         Office of Inspector General
                        U.S. Department of Education
                              330 C Street, SW
                        Washington, DC 20202-1510

           Your report may be made anonymously or in confidence.




             YOUR ATTENTION, PLEASE!

      The ED/OIG Semiannual Report to Congress and
           reports listed in the appendices are also
             available on the ED/OIG Website, at
               http://www.ed.gov/offices/OIG
                                                                            October 30, 2000

Honorable Richard W. Riley
Secretary of Education
Washington, DC 20202

Dear Mr. Secretary:

I am pleased to submit this semiannual report on the activities of the Department's Office of
Inspector General for the six-month period ending September 30, 2000 in accordance with
section 5 of the Inspector General Act of 1978 (Public Law 95-452, as amended). The Act
requires you to transmit the semiannual report by November 30, 2000 to the appropriate
congressional committees and subcommittees, together with: 1) a report containing any
comments you wish to make; 2) statistical tables as specified in section 5(a)(13)(b)(2) and (3) of
the Act; and 3) a statement with respect to audit reports on which management decisions have
been made but final action has not been taken, as specified in section 5(a)(13)(b)(4).

Our work this period focused upon both Departmental operations and Department programs, in
accordance with our legislative mandate. At the request of the Department, we continued our
review of the Department’s internal control over the use of purchase cards and third-party
drafts. The review covers all of the principal offices; we have identified internal control
weaknesses and have found the principal offices receptive to our identification of areas for
improvement. Our investigations into fraud against the Department resulted in substantial
monetary recoveries in one case and guilty pleas in the other. Management has cooperated fully
with our investigations. Our review of the Department’s communication infrastructure, EDNet,
identified a number of security exposures, which Department managers have planned corrective
actions to address. In the programmatic area, we reviewed seven states’ compliance with the
Gun-Free Schools Act. Most of the states concurred with our findings and recommendations for
improving their compliance with the Act’s provisions.

I look forward to continuing to work with you and Department managers in the coming months,
as we seek to ensure that Education Department programs and operations serve the nation’s
students and taxpayers with efficiency, effectiveness, and integrity.

                                             Sincerely



                                             Lorraine Lewis
                                 INSPECTOR GENERAL’S
                          MESSAGE TO CONGRESS

It is my pleasure to report on the accomplishments of the Office of Inspector General,
Department of Education, for the period April 1, 2000 through September 30, 2000. This has
been an especially busy reporting period, with much work conducted in both Department
programs and operations.

As I mentioned in our previous Semiannual Report, we are focusing additional attention on
Department operations. Twice this period, I testified before the U.S. House of Representatives
on financial management issues at the Department. In my testimony, I highlighted our recent
information technology and computer security reviews, the Department’s progress on financial
statement audit recommendations, and ongoing investigations. Through the cooperative efforts
of the Department and this office, a total of 117 financial statement audit recommendations have
been completed and 22 remain with corrective action pending.

One of the investigations involves individuals who acquired, for personal use, over $300,000 in
equipment purchased with federal funds, and charged the Department over $600,000 for hours
not worked. At the end of the semiannual period, four of the individuals involved had pled guilty
to their involvement. Another investigation involves $1.9 million in Impact Aid funds that were
fraudulently wired into improper bank accounts. These funds should have been distributed to
two school districts in South Dakota. The Department has recovered over $1.6 million of these
funds, as well as the funds from the sale of the two cars seized during the investigation. We have
received the full cooperation of Department management during these investigations.

In the programmatic area, we issued a number of reports relating to both elementary and
secondary education and higher education. We issued reports to seven states on their
compliance with the Gun-Free Schools Act and suggested improvements as necessary. We found
that all of the states we reviewed would be aided by a clearer understanding of the definition of
firearms. In another audit, we found that the process for recertifying foreign schools'
participation in Title IV of the Federal Family Education Loan program has been ineffective.
We recommended that the Student Financial Assistance office implement controls to ensure that
required documentation is obtained and reviewed before making recertification decisions. We
also reviewed management controls over distance education and found that both states and
accrediting agencies had several concerns and suggestions for federal action. Information on
several other reviews we conducted this period on Departmental programs is also included in
this report.

There has also been an increased emphasis on improper payments in recent years, including at
recent congressional hearings. I have recommended that the Department proactively develop its
own approach or methodology for annually estimating improper payments. With a reasonable
improper payment estimate, the Department will be in a better position to manage its financial
resources and to make programmatic decisions. Given the breadth of the Department’s
programs and the amount of federal funds involved, we support the General Accounting Office’s
current involvement in identifying possible improper payments. Their review will supplement
our work and provide additional resources in this important area.
I am pleased to announce that we have selected two new Assistant Inspectors General. Ms.
Mary Mitchelson joins us as the Assistant Inspector General for Analysis and Inspection
Services and Mr. Donald R. Reid joins our staff as the Assistant Inspector General for
Investigation Services. Their experience and knowledge will contribute to accomplishing the
OIG’s mission.

Our commitment to ensuring the proper, efficient, and effective use of federal education funds
remains vigilant. I look forward to a continued partnership with the Secretary and the Congress
as we pursue these important endeavors.


                                            Lorraine Lewis
                                                    CONTENTS


Letter to the Secretary

Inspector General's Message to Congress

Executive Summary............................................................................................................. 1

Significant Activities and Accomplishments ...................................................................... 4

P.L. 95-452 Reporting Requirements ................................................................................ 19

!     Appendix 1: Management Challenges Facing the Department of Education
                          Reported to Congress by OIG........................................................................20

!     Appendix 2: Recommendations Described in Previous Semiannual Reports
                  on Which Corrective Action Has Not Been Completed.................................21

!     Appendix 3: ED/OIG Audit Services Reports on Education Department
                  Programs and Activities..................................................................................22

!     Appendix 4 Other ED/OIG Reports on Education Department Programs
                 and Activities ..................................................................................................25

!     Appendix 5: Inspector General Issued Audit Reports with Questioned Costs....................26

!     Appendix 6: Inspector General Issued Audit Reports with Recommendations
                  for Better Use of Funds ..................................................................................27

!     Appendix 7: Unresolved Reports Issued Prior to April 1, 2000..........................................28

!     Appendix 8: Investigation Services Cumulative Prosecutive Actions ................................31

!     Appendix 9: Collections from Audits and Investigations ...................................................34

!     Appendix 10: Statistical Profile.............................................................................................35
                                 EXECUTIVE SUMMARY

The Office of Inspector General (OIG) this period continued to focus on identifying specific and
systemic weaknesses, as well as opportunities for improvement, in Department of Education (ED
or the Department) operations and programs. We also continued to work with ED managers as
they address these issues. Our reviews focused on areas we identified last period in our response
to a joint House and Senate request, as management challenges facing the Department (Appendix
1). These areas continue to present significant challenges to ED managers. Finally, we continue
to fight fraud, waste, and abuse in Department programs and operations. A summary of our
work in these and related areas follows, with more detailed descriptions in the body of this
report.

DEPARTMENTAL OPERATIONS

                                   Ongoing Investigations
We are conducting vigorous investigations involving internal Departmental operations. A
money-laundering and wire-fraud scheme led to an investigation which resulted this period in the
Department recovering $1,657,980 that had been fraudulently wired to improper bank accounts
(page 4). In addition, our investigation of individuals who purchased government equipment
with federal funds for non-business-related purposes and fraudulently charged hundreds of
thousands of dollars in unworked overtime hours to the Department resulted in four guilty pleas
by the end of the period (page 4).

                                   Financial Management
One of the most critical challenges facing the Department is the ability to provide accurate
financial information to make informed decisions, manage for results, and ensure operational
integrity. In our last semiannual report (Semiannual Report No. 40, page 1) we reported that the
Department for the first time was able to issue its audited financial statements to the Office of
Management and Budget by the statutory deadline. We are committed to issuing the fiscal year
2000 reports for the Department and Student Financial Assistance (SFA) on time (page 4).

                                     Information Systems
Another area that poses significant challenges for the Department is that of information systems
and security controls (Semiannual Report No. 40, page 2). This period we completed an audit of
ED’s communication infrastructure, the Department of Education Network (EDNet) that
identified a number of security exposures that affect the overall security of the Department’s
information systems (page 5). This work followed our first security audit, that of the Grants
Administration and Payment System, done in September 1998 (Semiannual Report No. 38, page
1), and our second, a report on ED’s security posture, policies, and plans, issued in February
2000 (Semiannual Report No. 40, page 3).
In addition, this period we conducted a follow-up review on corrective actions the Department
had taken related to our audits of SFA information technology contracts. We found that ED has


                                                1
taken corrective actions that would correct the problems identified in three of six issue areas.
The other three issue areas are still outstanding (page 5).

                                        Internal Control
At the request of the Department, our Analysis and Inspection Services continued a review of
ED’s internal control over the use of purchase cards and third-party drafts. The review covered
all of the principal offices within the Department, with each office receiving an individual report,
followed by a summary report highlighting the most significant issues for the Department. We
assessed ED’s internal control against the General Accounting Office Standards for Internal
Control in the Federal Government (GAO Standards). From the work we have completed, we
have found that ED does not fully satisfy the GAO Standards in all cases (page 5).

DEPARTMENT PROGRAMS
                                     Gun-Free Schools Act
The Gun-Free Schools Act of 1994 prescribes actions that states must take when students are
determined to have brought a firearm to school. This period our office issued reports on seven
states’ implementation of the Act for the 1997-98 school year. We found that five of the seven
states and a majority of the local educational agencies (LEAs) were generally in compliance with
the Act. We did, however, identify possible non-compliance at two states, weaknesses at LEAs,
and weaknesses in the collection and reporting of data (page 6).

                                 Student Financial Assistance
The OIG continues to work with Department managers and officials to help ensure the integrity
of the SFA programs. Of the nine significant challenges we identified last period, three are SFA-
related issues.

PROGRAM OVERSIGHT
We issued three audit reports on aspects of the SFA programs involving issues of oversight of
institutions participating in the programs that could put at risk millions of dollars in Title IV,
Higher Education Act program funds (page 7). The audits covered recertifying of foreign
schools, Case Management and Oversight (CMO) program review, and CMO’s process for
tracking and resolving audit recommendations (page 8).

SCHOOLS AND R ECIPIENTS
OIG audits and investigations this period identified recipients of ED funds who either misspent
or otherwise misused the funds. Investigations continued to yield convictions of those who
perpetrated fraud against the SFA programs, as well as sentences with substantial fines,
restitutions, and terms of imprisonment (page 9).
In addition, two significant civil settlements occurred this period: 1) a $7,775,000 civil
settlement with CORUS Bankshares, Inc. and CORUS Bank, Inc. for their role in submitting
fraudulent reinsurance claims for student loans (page 9), and 2) a settlement agreement with
CSC Credit Services, Inc., the Department of Justice, qui tam relators, and the Department to
resolve a federal civil false-claims suit. CSC Credit Services, Inc. paid the United States
government the sum of $6,417,114 (page 10).


                                                  2
OTHER ACTIVITIES AND INITIATIVES
                                   Congressional Activities
Inspector General Lorraine Lewis testified before Congress twice during the period. Both
hearings were related to financial management at the Department (page 15). The OIG also
responded to congressional requests regarding Departmental operations from the Senate
Committee on Governmental Affairs and the House Subcommittee on Government Management,
Information and Technology, Committee on Government Reform (page 16).

                                 Nonfederal Audit Activities
The Inspector General Act directs the Inspector General to take appropriate steps to ensure that
work performed by nonfederal auditors complies with federal government auditing standards.
This period we performed 60 quality control reviews of audits performed by independent public
accountants (page 16).

                         President’s Council on Integrity and Efficiency
Our office participated in initiatives of the President’s Council on Integrity and Efficiency
(PCIE) and Executive Council on Integrity and Efficiency (ECIE) during the period. Among
them was Phase I of a review of ED’s compliance with Presidential Decision Directive 63, which
provides for a national effort to assure the security of the nation’s critical infrastructures (page
17). In addition, this period our office produced the PCIE/ECIE Fiscal Year 1999 Progress
Report to the President (page 18).




                                                 3
              SIGNIFICANT ACTIVITIES AND ACCOMPLISHMENTS

DEPARTMENTAL OPERATIONS
                                    Ongoing Investigations

FORFEITURE IN REM JUDGMENT IN EXCESS OF $1.6 MILLION AND RETURN OF FUNDS TO ED

Based on the work of the OIG and the Federal Bureau of Investigation, and at the request of the
Department, a federal complaint for forfeiture in rem was filed this period in U.S. District Court,
District of Columbia. The complaint outlined evidence developed in an investigation into
$1.9 million of Department of Education (ED or the Department) Impact Aid funds fraudulently
wired in late March and early April from the Federal Reserve to improper bank accounts. These
funds were intended for two school districts in South Dakota, which received their correct
payments in mid-April.
The court subsequently entered a judgment of forfeiture of all the assets covered by the
complaint. The judgment covers eight assets related to a money-laundering and wire-fraud
scheme, including a total of $1,657,980, a 2000 Lincoln Navigator, a 2000 Cadillac Escalade,
and a piece of real estate in Maryland that was purchased with the diverted funds.
On September 29, 2000, the Department of Justice Asset Forfeiture and Money Laundering
Section granted ED’s Petition for Remission. ED received $1,657,980, which was placed in the
Impact Aid account for distribution to appropriate grantees. The Department anticipates
receiving additional funds as the remaining assets are sold. We are conducting a vigorous
investigation of this diversion of funds.

IMPROPER PURCHASES OF EQUIPMENT, CHARGES FOR UNWORKED HOURS

We are also conducting a vigorous investigation of individuals who for a period of years
purchased equipment with federal funds for non-business-related purposes, billed the
Department for hours not worked, and received goods purchased with federal funds for personal
use. These goods include computers, printers, computer software, scanners, cordless telephones,
a 61-inch television, walkie-talkies, compact disc players, and other equipment. The total cost of
these items to ED was over $300,000. In addition, it is estimated that between January 1, 1997,
and November 30, 1999, individuals involved in the case fraudulently charged approximately
$634,000 in unworked overtime hours to the Department.
At the end of the reporting period, four individuals had pled guilty based on their involvement in
the case. In October, two more individuals pled guilty. The three who were ED employees at
the time of their pleas submitted written resignations from the Department as part of their plea
agreements.

                                    Financial Management
One of the most critical challenges facing the Department is the ability to provide accurate
financial information to make informed decisions, manage for results, and ensure operational


                                                 4
integrity. This period, the Department provided us with a corrective action plan for the fiscal
year 1999 financial statement audit and updated corrective action plans for the fiscal years 1995
through 1998 financial statement audits. Through the cooperative efforts of the Department and
this office, a total of 117 recommendations have been completed and 22 remain with corrective
action continuing. We also continue to work on the fiscal year 2000 financial statement audit
and are committed to issuing the reports for the Department and Student Financial Assistance on
time.

                                      Information Systems
REVIEW DISCLOSES SECURITY EXPOSURES

We issued a final report this period covering the results of our evaluation of the security posture
of the Department’s information technology infrastructure, the Department of Education
Network (EDNet). The audit identified a number of security exposures that affect the overall
security of the Department’s infrastructure and information assets. The Department concurred
with our findings and recommendations. We will continue to monitor the progress of their
corrective actions. This is the third security audit for our office. The first, “Review of GAPS
[Grants Administration and Payment System] Security,” was done in September 1998
(Semiannual Report No. 37, page 1); the second, “Review of Security Posture, Policies, and
Plans,” was issued in February 2000 (Semiannual Report No. 40, page 3).

CORRECTIVE ACTION ON SFA INFORMATION TECHNOLOGY CONTRACTS
This period we conducted a follow-up review on corrective actions ED has taken related to our
audits of Student Financial Assistance (SFA) information technology contracts (ED-OIG/A07-
A0014, September 27, 2000). We found that the Department has taken corrective actions that
would likely correct the problems identified in three of six issue areas. Specifically, ED has
taken corrective actions to formalize contract changes, to ensure that key personnel changes were
appropriately authorized, and to ensure that contract terms were appropriately defined in the
identified contracts.

The Department has not taken adequate, timely action to address the following issues:
Ø    key personnel who were specified as being 100 percent dedicated to the contract but who
     were charging hours to new work and other ED contracts;
Ø    weaknesses in procedures for monitoring reimbursements due ED for charges collected
     from non-ED users of the Title IV Wide Area Network, which resulted in missing
     reimbursement checks; and
Ø    incorrect billings for travel costs associated with the contracts.
The Department concurred with our findings and recommendations and identified actions it
intends to implement to address the issues raised by our audit.

                                        Internal Control
At the Department’s request, our Analysis and Inspection Services continued a review of the
Department’s internal control over the use of purchase (credit) cards and third-party drafts
(checks). We assessed ED’s internal control against the General Accounting Office Standards
for Internal Control in the Federal Government (GAO Standards). The five GAO Standards


                                                  5
include: 1) control environment; 2) risk assessment; 3) control activities; 4) information and
communications; and 5) monitoring.
Our review included an exa mination of the internal control for each ED principal office. During
this reporting period, we completed reports on all but one (see Appendix 4). In October, we
issued the report on the remaining principal office, and a summary report to the Department
highlighting significant issues and providing recommendations for corrective action.
We found that the Department’s established control activities for the purchase card and third-
party draft programs are not always followed. Additionally, we found that the Department’s
Office of the Chief Financial Officer (OCFO), which has responsibility for the operation of both
programs, needs to improve its administration of the programs. Consequently, we found that the
Department does not fully satisfy the GAO Standards in all cases.
Some of the deficiencies we noted include a frequent lack of documented supervisory review of
individual purchases made by purchase cardholders. This is combined with a lack of sufficient
supporting documentation for some purchase card transactions. In addition, ED’s purchase card
training and procedural manual need improvement. The OCFO also needs to complete an
effective reconciliation of the monthly Department-wide purchase card statement.
In the third-party draft program, we noted deficiencies in ED’s internal control over the printing,
signing, and monitoring of drafts. We also noted a lack of sufficient supporting documentation
for some third-party draft transactions.

                               Controls Over Cellular Phones
This period we conducted an audit of the Department’s controls over cellular phones (“Audit of
the U.S. Department of Education’s Controls over Cellular Phones,” ED-OIG/A11-A0014,
September 15, 2000). We found : 1) lack of Department-wide and principal office cell phone
policies and procedures, 2) unreliable cell phone inventories, 3) inadequate separation of key
cell phone responsibilities, 4) inconsistent vendor selection processes, 5) inadequate and
inconsistent billing procedures, and 6) inadequate supporting documentation for cell phone
purchases and billings.
These weaknesses result in more than a relatively low risk that errors, irregularities, and other
inefficiencies may occur. The Department concurred with our findings and recommendations,
and has planned actions that should begin to address the cited conditions.

DEPARTMENT PROGRAMS
                                     Gun-Free Schools Act
The Gun-Free Schools Act of 1994 requires each state receiving federal funds under the Act to
have in effect a law requiring local educational agencies (LEAs) to expel from school, for a
period of not less than one year, a student who is determined to have brought a firearm to school.
The Act allows the district’s chief administrative officer to modify its expulsion requirement on a
case-by-case basis. The Act also requires states to report annually to ED information on firearm
expulsions under the state law.




                                                 6
AUDITS GENERALLY FIND COMPLIANCE AND SOME REPORTING PROBLEMS

This period we audited seven states’ compliance with the provisions of the Gun-Free Schools
Act. West Virginia, Wisconsin, Texas, Maryland, Colorado, New Mexico, and California were
selected to participate in this audit. (See Appendix 3 for individual audit listings.)
We concluded that five of the states and a majority of the LEAs were generally in compliance
with the Act for the 1997-1998 school year. We did, however, identify weaknesses in the
following areas.

Ø    Possible non-compliance at two states. The Colorado state law may not require
     mandatory expulsions for a period of at least one year for students who bring a firearm to
     school, while in California, the state law may not require mandatory expulsions of students
     who bring explosives to school.

Ø    Weaknesses at LEAs. In New Mexico, Albuquerque Public Schools did not expel 14 of
     the 26 students who were involved with firearms. In California, LEAs’ decisions to modify
     the expulsion requirement were made at a lower organizational level than the Act requires.
     We also found that LEAs did not provide the California Department of Education with
     school-level data required by the Act. In two LEAs in Colorado, there were inadequate
     criminal justice or juvenile delinquency system referral policies in place.

Ø    Collection and reporting of data. In California, Maryland, Wisconsin, and New Mexico,
     we found weaknesses in the collection and reporting of data that resulted in errors reported
     by the state department of education. Most of the errors in reporting were due to confusion
     over what weapons qualify as a firearm.
Most of the states concurred with our findings and recommendations, and many are taking action
to address the weaknesses we identified. In addition, we have recommended that the Office of
Elementary and Secondary Education (OESE) determine whether the Colorado and California
state laws are in compliance with the Act. OESE plans to address our recommendation.

                                Student Financial Assistance
While the creation of a Performance-Based Organization for the SFA programs has resulted in
improvements, successful management of the programs and their delivery systems remains
among the most significant challenges for ED.

PROGRAM OVERSIGHT
Weaknesses in oversight mechanisms can make it more difficult for managers to address
problems in the programs they manage. This period we issued three audit reports on aspects of
the SFA programs involving weaknesses in oversight and management control.

INEFFECTIVE PROCESS FOR RECERTIFYING FOREIGN SCHOOLS

Our audit of SFA’s process for recertifying foreign schools’ participation in the Federal Family
Education Loan (FFEL) program found that the process has been ineffective (“The
Recertification Process for Foreign Schools Needs to Be Improved,” ED-OIG/A01-90005,
September 29, 2000). We found that SFA has not performed recertifications in a timely manner,
and has not based its recertification decisions on information required by the Higher Education
Act (HEA). Specifically, SFA did not enforce statutory requirements for compliance audits and
foreign medical school eligibility ratios. As a result, FFEL funds were potentially at risk at these

                                                 7
foreign schools because ineligible institutions or students may have received funds to which they
were not entitled.
We recommended that the Chief Operating Officer, SFA implement controls to ensure that
required documentation is obtained and reviewed before making recertification decisions. While
SFA officials generally concurred with our recommendations, they also documented the
challenges they face in enforcing the HEA requirements for foreign schools. They assert that
these challenges result from the lack of understanding by foreign schools concerning annual
compliance audit requirements and the difficulty of SFA and schools in obtaining pass rates from
the organization administering medical school examinations.

WEAKNESSES IN PROGRAM REVIEW PROCESS

This period we conducted a review of Case Management & Oversight’s (CMO) program review
function (“Review of Case Management & Oversight’s Program Review Function,” ED-
OIG/A04-90003, September 21, 2000). At the time of our review, CMO was one of six services
within SFA that was responsible for administering the SFA programs. Its responsibilities
included determining institutions’ eligibility to participate in the federal SFA programs and
certifying institutions for participation. It was also responsible for developing and implementing
policies and procedures for monitoring institutions participating in the programs to ensure
compliance with the Higher Education Act, regulations, and policies, and conducting on-site
reviews of participating postsecondary institutions.
Our review found that CMO does have a process in place to conduct program reviews within the
case management system. It does not, however, have proper controls to ensure the effective
utilization of program reviews to monitor and improve institutional performance.
We recommended that the Chief Operating Officer, SFA institute management controls within
the case management process to ensure a consistent and appropriately balanced use of program
reviews to monitor institutional compliance with Title IV requirements. SFA concurred with our
recommendations; however, it did not agree with all of our assessments. SFA stated that as it
develops program review measures and refines goals, it will clarify the importance of program
reviews for the case teams, emphasize the need for a more balanced use of reviews in case
management, and perform more program reviews at high-risk institutions.

IMPROVEMENTS NEEDED IN TRACKING AND RESOLVING AUDIT RECOMMENDATIONS
We issued a report on our review of CMO’s process for tracking and resolving audit
recommendations (“Audit of Case Management & Oversight’s Audit Tracking and Resolution
Process,” ED-OIG/A03-90003, September 29, 2000). We found that CMO does not ensure that
all required SFA compliance audit reports are submitted when due or issued in a timely manner,
or that the findings are coded correctly. We did find that CMO had an effective system in place
to ensure the timely submission of financial audits of proprietary institutions, and generally
resolved compliance reports in accordance with applicable requirements. SFA generally
concurred with our procedural recommendations to improve CMO’s audit tracking and
resolution process.

DISTANCE EDUCATION

The growth in schools offering educational programs and courses delivered through computer
transmission (i.e., “distance education”) raises concerns about implementing management
controls. This period we gathered information from 56 state agencies that license or approve

                                                8
higher education institutions to operate in their states, and from accrediting agencies the
Department recognizes to accredit institutions authorized to participate in the Title IV programs.
Our study revealed concerns by both state and accrediting agencies in the areas of educational
outcomes, student support services, curricula, availability of information about institutions,
faculty, and satisfactory academic progress (“Management Controls for Distance Education at
State Agencies and Accrediting Agencies,” ED-OIG/A09-90030, September 27, 2000). In
addition, 50 percent of the state agencies indicated a high level of concern about out-of-state
institutions that offer programs and courses delivered through computer transmission to state
residents.
Both state and accrediting agencies had several suggestions for federal action that would enhance
their licensing/approval and accreditation procedures for protecting students and ensuring quality
of programs and courses that are offered primarily through distance education. We provided our
report to the Chief Operating Officer, SFA and the Assistant Secretary for Postsecondary
Education for information purposes.

NEGOTIATED RULEMAKING

The Higher Education Act requires the Department to conduct negotiated rulemaking with the
postsecondary education community. The Inspector General Act requires us “to review existing
and proposed legislation and regulations relating to programs and operations” of the Department.
In fulfilling our responsibility in this area, we were active participants this period in ED’s
internal regulatory workgroups for negotiated rulemaking. We advised the Department of the
potential consequences of proposed changes to the economy, efficiency, and integrity of SFA
programs. Proposed regulations have been published for public comment.

SCHOOLS AND R ECIPIENTS
OIG audits and investigations of schools and other recipients of ED funds have identified both
systemic and specific weaknesses. Our work this period, as in prior periods, resulted in
significant programmatic and monetary findings as well as convictions, sentencings, and
recoveries.

                                         Civil Actions
BANK AGREES TO PAY $7,775,000 TO SETTLE FALSE CLAIMS ACT LAWSUIT

Officials of CORUS Bankshares, Inc. and CORUS Bank, Inc. (CORUS) settled an action filed in
the Northern District of Illinois under the federal False Claims Act. CORUS agreed to pay
$7,775,000 to compensate the federal government for allegedly submitting fraudulent insurance
and reinsurance claims of guaranteed student loans. The settlement also resolves the
administrative treatment of unsubmitted insurance and reinsurance claims that will result in
CORUS foregoing collection on approximately $3,500,000 in guaranty claims, thus resulting in
an aggregate settlement of nearly $11,500,000.
CORUS Bankshares, Inc. is a one-bank holding company based in Chicago, Illinois. CORUS
Bankshares came into existence in June 1996, when its predecessor River Forest Bancorp, Inc.
changed its name to CORUS Bankshares, Inc. The lawsuit alleged that River Forest Bancorp,
Inc. submitted claims for insurance on defaulted guaranteed student loans after the loans had
become ineligible for insurance and reinsurance because of servicing violations concerning due


                                                9
diligence. To facilitate this scheme, bank employees, including those at the lower supervisory
level of the student loan processing department, falsified default claim forms submitted for
insurance and reinsurance.

CONTRACTOR PAYS GOVERNMENT $6,417,114 TO RESOLVE FALSE CLAIMS SUIT
Effective September 28, 2000, CSC Credit Services, Inc. (CSC Credit), a subsidiary of Computer
Sciences Corporation, reached a settlement agreement with the Department of Justice, qui tam
relators, and the Department of Education to resolve a federal civil false-claims suit. As a result
of the settlement agreement, CSC Credit paid the United States government the sum of
$6,417,114. This matter stems from a four-year investigation by OIG that began in late 1996.
CSC Credit was an ED contractor engaged in collecting defaulted student loans. It submitted
false claims to the Department for the payment of commissions and incentive bonuses, based on
activity that did not meet the requirements for loan consolidation as set forth under applicable
laws and regulations.
The settlement will become final when the U.S. District Court for the District of Columbia
approves it.

                                           Institutions

SUCCESS INSTITUTE OF BUSINESS
Our audit of Success Institute of Business, a proprietary school located in Houston, Texas
disclosed that the school improperly retained and used $80,000 of William D. Ford Federal
Direct Loan Program funds that were received in excess of what the school requested (“Review
of Student Financial Aid Compliance at Success Institute of Business,” ED-OIG/06-90004,
August 7, 2000). Success Institute also did not qualify as an eligible institution for participation
in the Title IV SFA programs because it received more than 85 percent of its revenue from Title
IV sources. The school also failed to pay required refunds, incorrectly calculated refunds, paid
refunds late, provided Title IV aid to ineligible students, and did not maintain reliable and
accurate accounting records.
The report recommended that Success Institute be required to return to ED or lenders $2,245,416
of Title IV funds that were inappropriately disbursed. After audit fieldwork was completed,
ED’s Southwest Case Management Division and the Texas Guaranteed Student Loan
Corporation took action against the school. The school ceased providing educational services
before we released our final audit report, and closed on March 27, 2000.

CLEVELAND STATE UNIVERSITY
We issued a report on our audit of Cleveland State University (“Audit of the Title IV Higher
Education Act Programs Administered by Cleveland State University, Cleveland, Ohio,” ED-
OIG/05-90054, September 28, 2000). Our audit identified deficiencies related to calculating
accurate student refunds, making all refunds, and making refunds timely; determining
satisfactory academic progress (SAP); and recording student account and general ledger
transactions accurately.
We recommended that the Chief Operating Officer, SFA instruct the university to refund to ED
or return to lenders $86,189. We also recommended that the university be instructed to make
SAP determinations and repay to ED or return to lenders any funds disbursed to ineligible

                                                 10
students, and establish and implement policies, procedures, and controls to correct the
deficiencies we identified.

The university did not concur with the refund findings and recommendations. The university did
concur with our recommendation to return $75,235 for seven students specifically identified as
failing to meet the SAP policy, but it did not concur that it should make further SAP
determinations. The university did not concur with the finding and recommendations to
complete the reconciliation of accounting records and claimed to have reconciled its records, but
did not provide adequate documentation to support its claim. The university’s response indicated
that it has implemented new policies and procedures to prevent some of the problems identified
in this report.

                               School Officials and Employees
CONVICTION IN $2.3 MILLION ELIGIBILITY FRAUD

A federal jury in Hammond, Indiana convicted the owners of Midland Career Institute of student
financial aid fraud and conspiracy. Our investigation disclosed that they had fraudulently
obtained approximately $2.3 million in Pell grants and federally guaranteed student loans. The
subjects ordered employees to falsely report to the school’s Pell third-party servicer that
ineligible students whom they had admitted to the school had earned the required number of
credits necessary to obtain subsequent Pell disbursements. The subjects are awaiting sentencing.

$281,000 RESTITUTION ORDERED IN PELL FRAUD

A former financial aid officer at Florida A&M University was sentenced in the Northern District
of Florida to 13 months in prison followed by three years probation, and was ordered to pay
restitution in the amount of $281,302. Investigation disclosed that the subject participated in a
kickback scheme in which she used her position to cause the university to make illegal Pell
disbursements to students who had already received Pell grants.

FINANCIAL AID DIRECTOR SENTENCED IN LOAN APPLICATION FRAUD

The former financial aid director of Computer Learning Center, Los Angeles, California was
sentenced in the Central District of California to 18 months in prison and was ordered to pay
$170,326 in restitution. An OIG investigation developed evidence that the subject, working as a
financial aid director under an alias, completed, falsely certified, and processed multiple Parent
Loans for Undergraduate Students (PLUS) and Supplemental Loans for Students (SLS) loan
applications for which he received over $155,000. The subject pled guilty to bank fraud and
Immigration and Naturalization Service (INS) fraud. The INS will initiate deportation
proceedings against him pending the completion of his imprisonment.
FINANCIAL AID DIRECTOR SENTENCED IN ELIGIBILITY FRAUD

The former financial aid director of Dongguk-Royal University located in Los Angeles,
California was sentenced to an eight-month split sentence, requiring her to spend four months in
federal prison followed by four months of electronically monitored home detention during her
three years of supervised release. She was ordered to pay $8,240 in restitution, the unpaid
balance of the loans she obtained for ineligible borrowers. Our investigation disclosed that
within two weeks of her employment as the financial aid director, she began certifying and
processing loan applications in excess of $60,000 for friends and family members who were not
eligible borrowers because they were not students.

                                                11
SCHOOL OFFICIAL PLEADS GUILTY TO CONSPIRACY

A member of the board of directors and corporate administrative officer, Technical Education
Center, Inc. (TEC), Rockville, Maryland pled guilty to conspiracy. Our investigation disclosed
that the subject conspired with others in fraudulent practices, including falsifying student status
reports and refund work sheets, forging student signatures on the exit interviews, and causing
students who were not maintaining satisfactory academic progress and meeting attendance
requirements to be placed on a leave of absence. More than 100 students’ records were falsified
and manufactured at TEC. TEC received and did not refund more than $250,000 as a result of
the conspiracy.
TEC’s former financial aid director pled guilty to obstruction of a federal audit. She allegedly
copied the backs of negotiated checks and attached them to copies of checks that had not been
negotiated to make it appear that refunds had been paid. The copied checks were given to the
independent auditors to conceal the fact that over $100,000 in refunds had not been paid.

GRAND JURY RETURNS INDICTMENT AGAINST NINE INDIVIDUALS; FOUR PLEAD GUILTY

Nine individuals were indicted in Miami, Florida on charges of conspiracy, wire fraud, false
claims, and money laundering for their activities leading to Pell fraud at Garces Commercial
College. The defendants were allegedly involved in a massive conspiracy that resulted in the
loss of approximately $3.5 million in Pell Grant funds.
The defendants allegedly recruited “college students” from a population of elderly persons living
in a senior citizen home. The senior citizens participated in macrame and craft classes; however,
Pell grants were awarded on their behalf for being allegedly enrolled in and attending Interior
Decorating and Graphic Design classes at Garces. Further, the conspirators began reusing the
student files for Pell funding, resulting in the school receiving numerous Pell awards for students
who were deceased when they were supposedly attending Garces courses.
In September 2000, four of the defendants pled guilty to conspiracy to steal approximately $3.5
million in Pell funds. Prosecutive action regarding the other five defendants was pending at the
end of the period.

SCHOOL OWNER AND DAUGHTER PLEAD GUILTY

The owner and president of the Eastern Jackson County College of Allied Health located in Blue
Springs, Missouri and her daughter, a former instructor at the school, pled guilty to conspiring to
steal and misapply more than $1.4 million in Pell Grant funds. The investigation revealed that
the Pell funds were obtained as a result of the co-conspirators’ forging and creating false
documents and submitting fraudulent grant applications to ED for non-existent or ineligible
students. The subjects are awaiting sentencing.

                               Other Significant Case Results
FRAUDULENT STUDENT LOAN APPLICATIONS

An individual was sentenced in U.S. District Court, Boston, Massachusetts to 27 months in
prison and five years probation and was ordered to pay restitution in the amount of $351,500 for
his role in a foreign school loan-fraud scheme. The court also entered an order of forfeiture
against him in the amount of $159,840.



                                                12
The subject had earlier pleaded guilty to nine counts of mail fraud, two counts of bank fraud, and
one count of Social Security Account fraud in connection with his submission of 19 fraudulent
student loan applications at foreign schools.

DOCTORS SENTENCED IN DISABILITY FRAUD
Two physicians were sentenced after pleading guilty to submitting false disability claims to have
over $50,000 in student loans discharged. The brothers claimed they were 100 percent disabled
because they were house-confined or wheelchair-bound, but they were surveilled riding bicycles
and swimming at the beach. The older brother, who accepted full responsibility for the fraud,
was sentenced to 18 months in prison to be followed by three years of probation. He was
ordered to pay $145,350 in restitution jointly and severally with his brother. The younger doctor
received five years of probation, 300 hours of community service and was ordered to pay the
restitution with his brother.

                        Government Performance and Results Act
The Government Performance and Results Act (GPRA) is the centerpiece of a statutory
framework that Congress put in place to improve federal management and provide a greater
focus on results. This period we issued two reports on GPRA-related issues.

TITLE III PERFORMANCE MEASUREMENTS MAY NOT SATISFY GPRA

Our review of the Higher Education Programs’ (HEP) compliance with GPRA requirements
found that HEP may be unable to satisfy the GPRA requirement to report on the performance of
the Title III program in fiscal year 2000 (“Review of Title III Program, HEA, Compliance with
GPRA Requirements for Implementation of Performance Indicators,” ED-OIG/A04-90014, June
30, 2000). While HEP has developed performance indicators along with the proposed methods
for measuring them, it did not use the suggested Departmental guidelines for developing
performance indicators, and the system used to obtain and compile data for reporting on the
indicators is not adequate. The Department concurred with our findings and recommendations.

WEAKNESSES IN MANAGEMENT CONTROLS IN ARIZONA DEPARTMENT OF EDUCATION

The Office of Special Education Programs (OSEP) within the Department’s Office of Special
Education and Rehabilitative Services (OSERS) administers programs funded under the
Individuals with Disabilities Education Act, Part B. The legislation outlines how states may use
the funds that ED grants for the purpose of special education and related services to children with
disabilities. OSEP uses performance data reported by state education agencies to prepare the
Department’s GPRA report to Congress on the outcome of these programs.
This period we issued a report on our review of the management controls over the Arizona
Department of Education’s (ADE) collection and reporting of performance data (“Arizona
Department of Education Management Controls over IDEA, Part B - Special Education
Performance Data,” ED-OIG/A09-A0001, September 22, 2000).
Our review of procedures and available documentation at ADE and three of its local educational
agencies (LEAs) identified weaknesses in management controls. The findings covered
performance data for exiting (i.e., whether students dropped out or graduated with a regular
diploma), discipline, and personnel. Specifically, we found that: 1) the LEAs did not include all
instances of occurrence for the performance indicators; 2) the ADE and the three LEAs did not
conduct reviews of the reported data or the reviews were inadequate; and 3) neither the ADE nor

                                                13
the three LEAs had documented their data collection processes. Due to these weaknesses in
ADE’s and the LEAs’ management controls, we have no assurance that reliable performance
data was provided to OSEP for the 1998-1999 school year. ADE generally concurred with the
findings, and has taken or plans to take appropriate corrective action.

                Elementary, Secondary, and Other Education Programs
SAN FRANCISCO: PROVIDING TITLE I FUNDS TO PRIVATE SCHOOL STUDENTS

We conducted a review this period of the San Francisco Unified School District’s oversight of
Title I funds for services to private school students (“San Francisco Unified School District’s
Oversight of Title I Funds for Services to Private School Students,” ED-OIG/A09-90032, August
4, 2000). The purpose of our review was twofold. First, we sought to determine if the District
provided funds for Title I services to private school students in proportion to the number of low-
income private school students in participating school attendance areas. Second, we sought to
determine whether the District provided adequate oversight to ensure that the funds were
expended for intended purposes, and in compliance with federal laws and regulations,
specifically, the Elementary and Secondary Education Act.
Our review found that, during the school year ending June 30, 1999, the District complied, in
general, with federal laws and regulations when administering Title I funds. The District,
however, did not ensure that services were provided for eligible students who attend private
schools located outside the District’s boundaries. We also noted weaknesses in the District’s
financial management controls.
The District concurred with our findings and recommendations and informed us that it is
implementing actions to address the issues raised by our audit.

PUERTO RICO DEPARTMENT OF EDUCATION

We issued two reports on the Puerto Rico Department of Education’s (PRDE) administration of
services provided to non-public school students, one on the Governor’s Safe and Drug- Free
Schools Program and the second on the Even Start Program (“Puerto Rico Department of
Education Needs Major Improvements in its Administration of the Governor’s Safe and Drug-
Free School Program,” ED-OIG/A01-90007, September 27, 2000; “Puerto Rico Department of
Education Needs Major Improvements in its Administration of the Even Start Program,” ED-
OIG/A01-90006, September 27, 2000). Both audits revealed that PRDE lacked adequate cash
management practices and effective internal controls to properly administer these programs.
In both audits, we found that PRDE delayed the flow of federal funds to subrecipients because it
did not ensure that contracts and budget assignments were signed prior to the beginning of the
award period. As a result, PRDE prevented institutions from rendering services and/or hindered
their ability to offer optimum services to program participants.
PRDE’s lack of efficient cash management controls resulted in excess cash held for the Even
Start Program and the Governor’s Program. Both programs lacked supporting documentation for
cash draws, and for payments made to subrecipients in the Governor’s Program. For the Even
Start program, PRDE failed to reconcile advance payments made to subrecipients, did not
properly forecast payroll expenses, and failed to return excess funds from another ED program.
PRDE agreed with most of our findings from both audits, and plans to implement our
recommendations.


                                                14
STUDENT SUPPORT SERVICES PROJECT

Our audit of Mount Senario College of Ladysmith, Wisconsin found that Mount Senario did not
always administer its Student Support Services Project according to the Higher Education Act of
1965 and Title 34, Code of Federal Regulations (“Audit of the Student Support Services Project
Administered by Mount Senario College, Ladysmith, Wisconsin,” ED-OIG/A05-A0003,
September 28, 2000).
Our audit disclosed that Mount Senario lacked adequate management controls over the project,
including written policies and procedures and an adequate system of financial management. We
found that Mount Senario:

Ø used federal funds to pay project staff for services provided to non-project participants;
Ø could not account for all funds received;
Ø could not support all achievements included in its performance report; and
Ø enrolled students who did not meet requirements to participate in the project.
Mount Senario did not concur with the first finding. Since completion of our field work,
however, Mount Senario has developed written policies and procedures for its project and its
financial management system. We revised the finding and made minor changes to the
recommendations to accurately reflect this occurrence. Mount Senario generally concurred with
the remaining findings.

OTHER ACTIVITIES AND INITIATIVES
                                   Congressional Activities
Inspector General Lorraine Lewis testified before congressional subcommittees twice during the
period. Both hearings were related to financial management at ED. The OIG also responded to
congressional requests this period.

HOUSE BUDGET COMMITTEE TESTIMONY

On May 24, 2000, Ms. Lewis testified before the Committee on the Budget, U.S. House of
Representatives. Her testimony included our recent work in the areas of Pell Grant fraud,
improper student loan forgiveness, and our ongoing investigation involving equipment purchased
with federal funds for personal use and false work hours charged to the Department (see page 4).
The need for an environment with strong internal controls, which are necessary to maintain the
integrity of ED programs, was also a topic of discussion during the hearing.

HOUSE OVERSIGHT AND INVESTIGATIONS SUBCOMMITTTEE TESTIMONY

On September 19, 2000, Ms. Lewis testified before the Subcommittee on Oversight and
Investigations, Committee on Education and the Workforce, U.S. House of Representatives. Her
testimony addressed various issues related to financial management, including ED’s progress on
fiscal year (FY) 1999 financial statement audit recommendations, the status of the FY 2000
financial statement audit and duplicate payments. She also discussed current investigations
involving equipment purchased with federal funds for personal use and false work hours charged
to the Department and diversion of Impact Aid funds (see page 4). Ms. Lewis also discussed
recent OIG computer security reviews of the Department (see page 5). Improper payments was
also a topic of discussion during the hearing.

                                                15
With regard to financial management, Ms. Lewis reported that, since our March 1, 2000
testimony, the Department had provided us with a response to the FY 1999 financial statement
audit, and updated corrective action plans for all of the financial statement audits. She also gave
a progress report on the status of unresolved recommendations from the FYs 1995 through 1999
audits.

                                     Information Requests
TRAVEL BY DEPARTMENT EMPLOYEES

In response to a request from Senator Fred Thompson, Chairman, Committee on Governmental
Affairs, United States Senate, we have provided periodic updates on political travel by
Department employees or officials, and the amount of time ED officials who are appointed by
the President and confirmed by the Senate spent campaigning. We initially replied on June 30,
2000, with information for the period March 1, 1998 through April 17, 2000. We provided
subsequent updates for each two-month period thereafter.

EXAMPLES OF FRAUD, WASTE, AND MISMANAGEMENT

We also responded this period to a request from Representative Stephen Horn, Chairman,
Subcommittee on Government Management, Information and Technology, Committee on
Government Reform, U.S. House of Representatives. Chairman Horn requested, through the
President’s Council on Integrity and Efficiency, three to five recent examples of fraud, waste,
and mismanagement. The examples we provided included:

Ø    a $7.775 million settlement between the Department of Justice and CORUS Bankshares,
     Inc. and CORUS Bank, Inc. for alleged fraudulent activities involving the submission of
     fraudulent insurance and reinsurance claims for guaranteed student loans (see page 9);

Ø    the conviction of Midland Career Institute owners who fraudulently obtained approximately
     $2.3 million in Pell grants and federally guaranteed student loans (see page 11);

Ø    the guilty plea of a former school owner and her daughter for conspiring to steal and
     misapply more than $1.4 million in Pell funds (see page 12); and

Ø    an ongoing investigation involving equipment purchased with federal funds for personal
     use and false work hours charged to the Department (see page 4).

                                 Nonfederal Audit Activities
Participants in ED programs are required to submit annual financial statements and compliance
audits performed by independent public accountants. The various types of audits the Department
receives include proprietary school/school servicer audits; lender/lender servicer audits; guaranty
agency audits; and Office of Management and Budget Circular A-133 Single Audits.
The Inspector General Act directs the Inspector General to take appropriate steps to assure that
work performed by nonfederal auditors complies with federal government auditing standards.
The OIG publishes audit guidance specific to ED programs to assist independent public
accountants in performing independent audits.




                                                16
Q UALITY R EVIEWS OF NONFEDERAL AUDITS
This period we completed 60 quality control reviews (QCRs) of audits performed by 55 different
independent public accountants (including 3 audits performed by different offices of a national
certified public accounting firm).

RESULTS OF QCRS

Based on our reviews, we determined:
Ø   39 (sixty-five percent) were acceptable or contained only minor audit deficiencies;
Ø   17 (twenty-eight percent) were substandard, requiring corrective action by the auditor; and
Ø   4 (seven percent) contained significant inadequacies preventing the Department from
     relying upon these audits.

REFERRALS OF INDEPENDENT PUBLIC ACCOUNTANTS

For audits containing significant inadequacies and for other serious violations of professional
standards, we made six referrals to the American Institute of Certified Public Accountants and/or
the appropriate State Board of Accountancy for possible disciplinary action during this period.

                           President’s Council on Integrity and Efficiency
The Inspector General is a member of the President’s Council on Integrity and Efficiency (PCIE)
and the PCIE’s Audit Committee. Our office participated in several PCIE initiatives during this
reporting period.

PRESIDENTIAL DECISION DIRECTIVE 63

Presidential Decision Directive (PDD) 63 provides for a national effort to assure the security of
the nation’s critical infrastructures. The directive, issued May 22, 1998, required each agency to
develop a Critical Infrastructure Protection Plan within 180 days. By May 22, 2000, those plans
were to have been implemented as an initial operating capability. By May 22, 2003, the United
States is to achieve and maintain the ongoing ability to protect our nation’s critical
infrastructures.
This period, the PCIE Audit Committee initiated a phased review of the nation’s critical
infrastructure assurance program in which at least 21 OIGs, including this office, are
participating. Our audit objective in Phase I was to assess the adequacy of ED’s planning and
assessment activities for protecting its critical cyber-based infrastructures.
We concluded that the Department has not taken sufficient action to implement PDD 63 and
needs to improve its planning and assessment activities for protecting its critical cyber-based
infrastructures. Specifically, we recommended that the Department:
Ø    revise and implement its Critical Infrastructure Protection Plan;
Ø    identify its critical infrastructure assets; and
Ø    conduct vulnerability assessments.
The CIO acknowledged that sufficient action has not been taken to implement the plan because
the Department focused its information technology resources and leadership on other urgent


                                                   17
needs, such as Y2K readiness. ED has recently taken positive steps, including the establishment
of a Chief Infrastructure Assurance Officer position and an Information Security Steering
Committee.

REPORT TO THE PRESIDENT
This period, our office produced the President’s Council on Integrity and Efficiency/Executive
Council on Integrity and Efficiency Fiscal Year 1999 Progress Report to the President. The
report presented examples of government-wide OIG accomplishments and initiatives in the areas
of preparing for Year 2000; systems security; GPRA; and integrity, accountability, and results.
The report illustrated the many ways in which IG offices helped promote economy, efficiency,
and integrity in government programs and operations during the year.




                                              18
                         P.L. 95-452 REPORTING REQUIREMENTS


Sections 5(a)(1) and 5(a)(2) Significant Problems, Abuses, and Deficiencies ....................................... 4

Section 5(a)(3) Recommendations Described in Previous Semiannual Reports
                on Which Corrective Action Has Not Been Completed............................................. 21

Section 5(a)(4) Matters Referred to Prosecutive Authorities
      Investigation Services Cumulative Prosecutive Actions ................................................................... 31
      Statistical Profile.................................................................................................................................35

Sections 5(a)(5) and 6(b)(2) Summary of Instances Where Information
                             Was Refused or Not Provided*

Section 5(a)(6) Listing of Audit Reports
      ED/OIG Audit Services Reports on Education Department Programs and Activities ...................... 22

Section 5(a)(7) Summary of Significant Audits
      Significant Activities and Accomplishments....................................................................................... 4

Section 5(a)(8) Audit Reports Containing Questioned Costs
      Inspector General Issued Audit Reports with Questioned Costs ....................................................... 26

Section 5(a)(9) Audit Reports Containing Recommendations That
                Funds Be Put to Better Use
      Inspector General Issued Audit Reports with Recommendations for
      Better Use of Funds ........................................................................................................................... 27

Section 5(a)(10) Summary of Unresolved Audit Reports Issued
                 Prior to the Beginning of the Reporting Period
      Unresolved Reports Issued Prior to April 1, 2000............................................................................. 28

Section 5(a)(11) Significant Revised Management Decisions*

Section 5(a)(12) Significant Management Decisions with Which OIG Disagreed*




*No instances to report.




                                                                          19
Appendix 1




                          MANAGEMENT C HALLENGES F ACING
                           THE D EPARTMENT OF EDUCATION
                           R EPORTED TO C ONGRESS BY OIG


Ø    The Department must address long-standing problems with financial management.

Ø    The Department must improve its security posture, policy and plans for its systems.

Ø    The implementation of Student Financial Assistance's Modernization Blueprint and
     Performance Plan presents unique challenges.

Ø    The Department's goal of "paperless" systems for SFA fund delivery creates new
     opportunities for efficiency and requires effective controls to ensure accountability, security
     and legal enforcement.

Ø    The Department needs to fully implement the Clinger-Cohen Act.

Ø    Obtaining quality data to measure the performance of its programs and to meet the
     reporting requirements of the Results Act presents significant challenges.

Ø    Balancing compliance monitoring and technical assistance presents a management
     challenge for elementary and secondary education programs.

Ø    The Department must continue to work with the Internal Revenue Service to implement a
     data match to ensure that SFA recipients accurately report income to qualify for financial
     aid.




                                                20
                                                                                                                                               Appendix 2


         Recommendations Described in Previous Semiannual Reports on Which
                   Corrective Action Has Not Been Completed
Section 5(a)(3) of the Inspector General Act requires a listing of each report resolved before the commencement of the reporting
period for which management has not completed corrective action. The reports listed below are OIG internal and nationwide audit
reports and management improvement reports.
                                                                                                  Total       Number of
Report Number/                            Auditee/Title                              Date       Monetary Recommendations Latest Target/
  Date Issued                    (Prior SAR Number and Page)                      Resolved      Findings    Open     Closed      Closure Date
New Since Last Reporting Period
                      None
Reported in Previous Semiannual Report
OFFICE OF POSTSECONDARY EDUCATION
04-60001       Process Enhancements in the HEA, Title III, Institutional Aid 8/31/96                          *            2           2            August, 2001
March 27, 1996 Program would Increase Program Efficiency Despite
               Limited Resources (SAR 32, pg. 9)

STUDENT FINANCIAL ASSISTANCE
MIR 92-05** ED Needs to Strengthen Student Loan Cure Procedures                             9/30/93 $154,000,000           1           0                 FY-2001
09-18053        (SAR 24, pg. 12)
March 13, 1992
17-48320        Financial Statement Audit: U.S. Department of Education                     9/30/95           *            0           9            See Footnote 2
March 17, 1995 Federal Direct Student Loan Program for the Year Ended
                September 30, 1994 (SAR 30, pg. 20)
17-40302        Financial Statement Audit: U.S. Department of Education                     8/31/95           *            3           2            See Footnote 3
May 31, 1995    Federal Family Education Loan Program for the Years
                Ended September 30, 1994 (SAR 31, pg. 12)
17-30302        Financial Audit: Federal Family Education Loan Program's                   10/31/94           *            3           6            See Footnote1
June 30, 1994 Financial Statements for the Years Ended 1993 and 1992
                (SAR 29, pg. 16)
05-80011        Institutional Participation and Oversight Service has                       5/31/99           *            1           1        February, 2001
August 27, 1998 Opportunities to Improve the Recertification Process
                (SAR 37, pg. 16)

OFFICE OF THE CHIEF FINANCIAL OFFICER
17-40303        Report of Independent Accountants on the US Department                      3/31/97           *            2          24      December, 2000
August 16, 1996 of Education Fiscal Year 1995 Department-Wide Financial
                Statements (SAR 33, pg. 14)
17-60002        Report of Independent Accountants on the US Department                      5/31/99           *            4          20                 FY-2001
August 31, 1997 Of Education Fiscal Year 1996 Department-Wide Financial
                Statements (SAR 35, pg. 19)
17-70002        US Department of Education's Fiscal Year 1997 Financial                     5/31/99           *            4          33                 FY-2001
June 15, 1998 Statements and Accompanying Notes (SAR 37, pg. 13)

OFFICE OF THE CHIEF INFORMATION OFFICER
11-70007       The Status of Education's Implementation of the Clinger-                     8/31/99           *            7           1                 FY-2002
March 31, 1998 Cohen Act (SAR 36, pg. 19)

*       Non-monetary findings only
**      Management Improvement Report (MIR)
SAR-    Semiannual Report
CAP-    Corrective Action Plan
1
    ACN 17-30302 - OIG returned the CAP to Program Office on 8/18/00 due to conflicting information. A revised CAP was not received by OIG before
     reporting period ended.
2
    ACN 17-48320 - OIG returned the CAP to Program Office on 8/18/00 due to conflicting information. A revised CAP was received by OIG and
     accepted by OIG after the reporting period ended, thus updated information will not be reflected in current SAR.
3
    ACN 17-40302 - OIG returned the CAP to Program Office on 8/18/00 due to conflicting information. A revised CAP was not received by OIG
    before reporting period ended.
                                                                                21
                                                                                                                              Appendix 3

               ED/OIG Audit Services Reports on Education Department
              Programs and Activities (April 1, 2000 - September 30, 2000)
Section 5(a)(6) of the Inspector General Act requires a listing of each report completed by OIG during the reporting period. A total of 34 audit
reports were issued by ED/OIG auditors. In addition, we issued 14 alternative products, which includes management information reports,
action memoranda, and special projects. The 48 reports are listed below by program office.
 Report Number /                                                                           Questioned Unsupported Better Use          Number of
    Date Issued                                 Report Title                                 Costs**      Costs        of Funds   Recommendations
AUDIT REPORTS
OFFICE OF THE CHIEF FINANCIAL OFFICER
A02-80002                  Recipient Financial Management System Contract Computer Data            $39,565      *       *              2
September 22, 2000         Systems, Incorporated, Rockville, Md.
A03-80010                  Audit of Drawdown Controls in Grant Administration and Payment             *         *       *              2
September 13, 2000         Systems
A07-A0014                  Follow-up Review on Corrective Actions the Department Had Taken            *         *       *              9
September 27, 2000         in Response to Issues Reported during the Office of Inspector
                           General's Contract Monitoring Audits of Student Financial Assistance
                           Information Technology Contracts

OFFICE OF THE CHIEF INFORMATION OFFICER
A11-90018                  Review of EDNet Security                                                   *         *       *              (a)
July 10, 2000
A11-A0005                  Review of Planning and Assessment Activities for Presidential              *         *       *              10
September 14, 2000         Decision Directive 63 on Critical Infrastructure Protection

OFFICE OF THE DEPUTY SECRETARY
A11-A0014                  Audit of the U.S. Department of Education's Controls over Cellular         *         *       *              7
September 15, 2000         Phones

OFFICE OF ELEMENTARY AND SECONDARY EDUCATION
A01-90006                  Puerto Rico Department of Education Needs Major Improvements            $29,204   $152,065   *              18
September 27, 2000         in its Administration of the Even Start Program
A01-90007                  Puerto Rico Department of Education Needs Major Improvement             $28,464   $53,988    *              17
September 27, 2000         in its Administration of the Governor's Safe and Drug-Free School
                           Program
A03-90023                  Maryland State and Local Education Agencies' Compliance with the           *         *       *              3
July 26, 2000              Gun-Free Schools Act of 1994
A03-A0007                  West Virginia State and Local Education Agencies' Compliance with          *         *       *              0
August 7, 2000             the Gun-Free Schools Act of 1994
A03-A0008                  Colorado State and Local Education Agencies' Compliance with the           *         *       *              3
September 13, 2000         Gun-Free Schools Act of 1994
A05-A0011                  Wisconsin State and Local Education Agencies' Compliance with the          *         *       *              4
August 21, 2000            Gun-Free Schools Act of 1994
A05-A0021                  Audit of Selected Aspects of Alliance City Schools' Administration         *         *       *              0
June 28, 2000              of the 21st Century Community Center (Learning Center) Program
A06-A0005                  Texas State and Local Education Agencies' Compliance with the              *         *       *              0
June 20, 2000              Gun-Free Schools Act of 1994
A06-A0006                  New Mexico State and Local Education Agencies' Compliance with             *         *       *              6
September 28, 2000         the Gun-Free Schools Act of 1994
A09-90032                  Audit of San Francisco Unified School District's Oversight of Title I      *         *       *              6
August 4, 2000             Funds for Services to Private School Students as Authorized by the
                           Elementary and Secondary Education Act
A09-A0008                  California State and Local Educational Agencies' Compliance with the       *         *       *              6
September 20, 2000         Gun-Free Schools Act of 1994

* - Non-monetary findings only.
** - Includes other recommended recoveries.
(a) - Number not cited due to the sensitivity of the report.
A - Audit



                                                                                    22
                                                                                                                                Appendix 3


       ED/OIG Audit Services Reports on Education Department
   Programs and Activities (April 1, 2000 - September 30, 2000) (cont.)
Report Number /                                                                                 Questioned Unsupported Better Use  Number of
Date Issued                                           Report Title                               Costs**      Costs     of Funds Recommendations
AUDIT REPORTS
OFFICE OF POSTSECONDARY EDUCATION
A04-90014               Review of Title III Program, HEA, Compliance with GPRA                      *          *          *             7
June 30, 2000           Requirements for Implementation of Performance Indicators
A04-A0009               Audit of the Higher Education Act Title III, Part A Higher Grant at      $64,707       *          *             2
September 29, 2000      Mars Hill College
A05-A0003               Audit of the Student Support Services Project Administered by            $60,880       *          *             9
September 28, 2000      Mount Senario College, Ladysmith, Wisconsin


OFFICE OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES
A05-A0027               Audit of Terminal Leave Costs at the Ohio Rehabilitation Services           *          *          *             0
September 15, 2000      Commission under the State Vocational Rehabilitation Services Program
A09-A0001               Arizona Department of Education Management Controls over IDEA,              *          *          *             7
September 22, 2000      Part B-Special Education Performance Data


STUDENT FINANCIAL ASSISTANCE
A01-90005               The Recertification Process for Foreign Schools Needs To Be Improved        *          *          *             4
September 29, 2000
A02-70010               Drake Business Schools Corporation - Refunds of Unearned Tuition,        $72,493       *          *            11
June 6, 2000            Fees and Other Institutional Charges
A03-90003               Audit of Case Management and Oversight's Audit Tracking and                 *          *          *             7
September 29, 2000      Resolution Process
A03-90005               Computer Dynamics Institute Incorporated's Eligibility to Participate   $6,410,913     *          *             6
September 15, 2000      in the Title IV Programs
A04-90003               Review of Case Management & Oversight's Program Review Function             *          *          *             3
September 21, 2000
A05-90052               Mount Senario College's Administration of the Title IV, HEA              $40,942       *          *            12
September 14, 2000      Program for the Period July 1, 1998 through June 30, 1999
A05-90024               Consolidating Defaulted Loans in the Federal Consolidation Loan             *          *          *             3
September 28, 2000      Program within the Federal Family Education Loan (FFEL) Program
A05-90054               Audit of the Title IV, Higher Education Act Programs Administered        $86,189       *          *             9
September 28, 2000      by Cleveland State University, Cleveland, Ohio
A06-90004               Review of Student Financial Aid Compliance at Success Institute of      $2,245,416     *          *             3
August 7, 2000          Business
A06-90012               Review of Student Financial Aid Compliance at the International          $66,034       *          *             4
August 8, 2000          Institute of Chinese Medicine
A06-A0011               The Academy of Health Care Professions' Compliance with Selected            *          *          *             0
September 20, 2000      Requirements of the Higher Education Act, Student Financial
                        Assistance Programs
A07-A0003               Audit of the Access America For Students Program (AAFS);                    *          *          *             2
September 28, 2000      Student Account Manager (SAM) Data




* - Non-monetary findings only.
** - Includes other recommended recoveries.
A- Audit




                                                                                  23
                                                                                                                               Appendix 3


       ED/OIG Audit Services Reports on Education Department
   Programs and Activities (April 1, 2000 - September 30, 2000) (cont.)
Report Number /                                                                                Questioned Unsupported Better Use   Number of
Date Issued                                                Report Title                         Costs**      Costs     of Funds Recommendations
ALTERNATIVE AUDIT SERVICES PRODUCTS
OFFICE OF THE CHIEF FINANCIAL OFFICER
E07-A0017                Planned Payment to Contractor for Unauthorized Work                       *          *          *            3
May 8, 2000              (SFA Action Memo No. 00-01)
E07-A0022                Duplicate Payments Made to Policy Studies Associates, Inc.                *          *          *            1
July 13, 2000            (State and Local Action Memo No. 00-05)
E07-A0032                Possible Impact of Guidance on ED's Control Environment                   *          *          *            2
September 25, 2000       (State and Local Action Memo No. 00-07)
F07-90041                Audit of National Computer Systems' Central Processing System             (b)        *          *            1
May 8, 2000              Contract Repricing and Equitable Adjustment Proposal


OFFICE OF ELEMENTARY AND SECONDARY EDUCATION
E03-A0008                Colorado Department of Education's Compliance with the Gun-Free           *          *          *            1
May 11, 2000             Schools Act of 1994 (State and Local Action Memo No. 00-01)
E04-A0007                Review of Alabama Title I Program (State and Local Action                 *          *          *            5
July 17, 2000            Memo No. 00-04)
E09-A0013                California Department of Education's Compliance with the Gun-Free         *          *          *            1
May 18, 2000             Schools Act of 1994 (State and Local Action Memo No. 00-02)


OFFICE OF POSTSECONDARY EDUCATION
A09-90030                Management Controls for Distance Education at State Agencies and          *          *          *            0
September 27, 2000       Accrediting Agencies (Mgmt. Info. Rpt.)
E07-A0012                Extension of the Project Period for Colorado State University's FY
May 23, 2000             1994 Educational Opportunity Center Grant (State and Local                *          *          *            2
                         No. 00-03)
E07-A0029                TRIO Projects at Independence Community College, Kansas                   *          *          *            1
September 29, 2000       Critical Financial and Administrative Deficiencies (State and Local
                         Action Memo No. 00-06)


STUDENT FINANCIAL ASSISTANCE
S11-90008                Results of Review of Controls over NSLDS's SSN Only Query                 *          *          *            2
August 3, 2000           Option (System Action Memo No. 00-01)


NOT RELATED TO ANY PROGRAM OFFICE
A05-A0024                Review of Travel Activities                                               *          *          *            0
June 30, 2000
A05-A0032                Review of Travel Activities - First Update                                *          *          *            0
July 28, 2000
A05-A0034                Review of Travel Activities - Second Update                               *          *          *            0
September 29, 2000



* - Non-monetary findings only.
** - Includes other recommended recoveries.
(b) - Not available under the Freedom of Information Act
A- Audit
E- Action Memo
F- Field Pricing Propsal
S- Special Project




                                                                                  24
                                                                                                                                Appendix 4




                             Other ED/OIG Reports on Education Department
                                        Programs and Activities
          Report
  ACN     Number                                                  Report Title                                                 Date Issued
ANALYSIS AND INSPECTION REPORTS
S13A003 2000-001 Results of the OIG Review of the Office of Vocational and Adult Education's Internal Controls Over the          April 18, 2000
                 Procurement of Goods and Services Using Third Party Drafts and Purchase Cards

S13A003 2000-002 Results of the OIG Review of the Office of Elementary and Secondary Education's Internal Controls Over           May 22, 2000
                 the Procurement of Goods and Services Using Third Party Drafts and Purchase Cards

S13A003 2000-003 Results of the OIG Review of the Office of Bilingual Education and Minority Languages Affairs' Internal          May 23, 2000
                 Controls Over the Procurement of Goods and Services Using Third Party Drafts and Purchase Cards

S13A003 2000-004 Results of the OIG Review of the Office of Management's Internal Controls Over the Procurement of Goods          June 26, 2000
                 and Services Using Third Party Drafts and Purchase Cards

S13A003 2000-005 Results of the OIG Review of the Office of Special Education and Rehabilitative Services' Internal               July 19, 2000
                 Controls Over the Procurement of Goods and Services Using Third Party Drafts and Purchase Cards

S13A003 2000-006 Results of the OIG Review of the Office of Chief Financial Officer/Office of Chief Information Officer's         July 26, 2000
                 Internal Controls Over the Procurement of Goods and Services Using Third Party Drafts and Purchase Cards

S13A003 2000-007 Results of the OIG Review of the Office of Civil Rights' Internal Controls Over the Procurement of Goods        August 2, 2000
                 and Services Using Third Party Drafts and Purchase Cards

S13A003 2000-008 Results of the OIG Review of the Office of Intergovernmental and Interagency Affairs' Internal Controls        August 18, 2000
                 Over the Procurement of Goods and Services Using Third Party Drafts and Purchase Cards

S13A003 2000-009 Results of the OIG Review of the Office of Educational Research and Improvement's Internal Controls            August 28, 2000
                 Over the Procurement of Goods and Services Using Third Party Drafts and Purchase Cards

S13A003 2000-010 Results of the OIG Review of the Office of the Secretary/Office of Legislation and Congressional Affairs'      August 31, 2000
                 Internal Controls Over the Procurement of Goods and Services Using Third Party Drafts and Purchase Cards

S13A003 2000-011 Results of the OIG Review of the Office of the Under Secretary's Internal Controls Over the Procurement     September 19, 2000
                 of Goods and Services Using Third Party Drafts and Purchase Cards

S13A003 2000-012 Results of the OIG Review of the Office of the General Counsel's Internal Controls Over the Procurement     September 18, 2000
                 of Goods and Services Using Third Party Drafts and Purchase Cards

S13A003 2000-013 Results of the OIG Review of the Office of Postsecondary Education's Internal Controls Over the             September 19, 2000
                 Procurement of Goods and Services Using Third Party Drafts and Purchase Cards

INVESTIGATIVE PROGRAM ADVISORY REPORT
              Awarding of SFA Contracts to Public Strategies Group                                                              August 31, 2000




                                                                        25
        Appendix 5




       Inspector General Issued Audit Reports with Questioned Costs 1


                                                                NUMBER                QUESTIONED         UNSUPPORTED2



A.       For which no management decision
         has been made before the commencement
         of the reporting period (as adjusted)                       36                 $184,791,770        $16,202,219

B.       Which were issued during the
         reporting period                                            11                      9,350,896          206,053

              Subtotals (A + B)                                      47                  $194,142,666        $16,408,272

C.       For which a management decision
         was made during the reporting
         period                                                      7                    $75,406,457          $107,634

         (i) Dollar value of
             disallowed costs                                                               63,135,452                0

         (ii) Dollar value of
              costs not disallowed                                                        $12,271,005          $107,634

D.       For which no management decision
         has been made by the end of the
         reporting period                                            40                 $118,736,209        $16,300,638

E.       For which no management decision
         was made within six months
         of issuance                                                 28                   $73,712,171        $10,064,075




1
    None of the audits reported in this table were performed by the Defense Contract Audit Agency.
2
    Included in questioned costs.




                                                                          26
                                                                                                             Appendix 6



             Inspector General Issued Audit Reports with
              Recommendations for Better Use of Funds1

                                                                        Number                       Dollar Value
A.        For which no manager decision
          has been made before the commencement
          of the reporting period (as adjusted)                              5                       $53,510,180

B.        Which were issued during the
          reporting period                                                   0                                 0

                     Subtotals (A + B)                                       5                       $53,510,180

C.        For which a management decision
          was made during the reporting
          period                                                             3                       $43,100,000

          (i) Dollar value of recommendations
              that were agreed to
              by management                                                  1                       $34,500,000

          (ii) Dollar value of
               recommendations that
               were not agreed to by
               management                                                    2                        $8,600,000

D.        For which no management decision
          has been made by the end of
          the reporting period                                               2                       $10,410,180


E.        For which no management
          decision was made within six
          months of issuance                                                 2                       $10,410,180




1
    None of the audits reported in this table were performed by the Defense Contract Audit Agency.




                                                           27
         Appendix 7


                                 Unresolved Reports Issued Prior to April 1, 2000
Section 5(a)(10) of the Inspector General Act requires a listing of each report issued before the commencement of the reporting period for
which no management decisions had been made by the end of the reporting period.
Report Number/                                      Report Title                                    Total Monetary        Number of
Date Issued                                  (Prior SAR No. and Pg.)                                   Findings        Recommendations
New Since Last Reporting Period
OFFICE OF ELEMENTARY AND SECONDARY EDUCATION
04-90008       Combining Funds in Schoolwide Programs                                                                         *                     3
March 29, 2000
Status: Program staff is working to resolve this by November.


STUDENT FINANCIAL ASSISTANCE
05-90002          Audit of the Illinois Student Assistance Commission's Administration of                                  $17,084                  3
December 29, 1999 the Federal Family Education Loan Program
Status: SFA and OIG have agreed to resolve the audit. OIG is awaiting audit clearance document and program determination letter.
06-80008                  Audit of Capital City Trade and Technical School Inc. Compliance with                         $2,032,581                  3
February 15, 2000         the 85 Percent Rule
Status: On departmental administrative stay - SFA is working with OIG to resolve this audit as it contains 85/15 issues.
06-80013                  Hallmark Institute of Aeronautics' Compliance with the 85 Percent Rule                        $5,204,586                  3
March 6, 2000
Status: On departmental administrative stay - SFA is working with OIG to resolve this audit as it contains 85/15 issues.
06-90008                  Southern Careers Institute's Compliance with the 85 Percent Rule                                    *                     1
March 30, 2000
Status: This audit was not resolved by 9/30/00 as the audit contained an 85/15 issue. However, on 10/16/00 this audit was resolved.
06-90011                  Review of Collections Activities at Unger and Associates                                      $833,897                    4
February 8, 2000
Status: On departmental administrative stay - SFA will work this once the Department's administrative stay is lifted.
09-90011                  Platt College- San Francisco Administration of Title IV Programs                              $191,721                   10
February 28, 2000
Status: School requested additional time to respond to the report because they claim they did not receive the report.
N06-90010                 Inspection of Park College's Compliance with Student Financial                                $169,390                    1
February 9, 2000          Assistance Requirements
Status: This is an inspection report. On departmental administrative stay - SFA is working with OIG and OGC to resolve this.


OFFICE OF THE CHIEF FINANCIAL OFFICER
05-90045       Audit of the Student Support Services Project Administered by Marian                                        $77,959                 10
March 27, 2000 College, Fond Du Lac, Wisconsin
Status: Post audit group in OCFO stated that this audit was resolved September 6, 2000. However, OIG is awaiting the audit clearance document and
program determination letter.
07-90003                  Audit of the Central Processing System Contract                                                  $90,600                  5
March 15, 2000
Status: Contracts and Purchasing Office of OFCO is in communication with NCS whether a refund of key personnel charges is due to the Department.
07-90017                  Audit of Compliance with Cost Accounting Standards for Travel National                              *                     4
March 16, 2000            Computer Systems, Iowa City, IA
Status: Contract and Purchasing Office of OCFO has requested copies of revised travel policies.
from NCS.

OFFICE OF POSTSECONDARY EDUCATION
07-80027       Audit of Creighton University's Administration of its Federal TRIO                                       $372,399                    3
March 31, 2000 Projects
Status: In July of 2000, Creighton paid $253,307 to resolve the monetary finding, and SFA expects to resolve the balance of the findings by January 2001.




         * - Non-monetary findings only.
         Note: Status comments agreed to or provided by Department.                    28
         Appendix 7



                        Unresolved Reports Issued Prior to April 1, 2000 (cont.)
Report Number/                                                  Report Title                                        Total Monetary               Number of
Date Issued                                               (Prior SAR No. and Pg.)                                      Findings              Recommendations
Reported in Previous Semiannual Report
OFFICE OF ELEMENTARY AND SECONDARY EDUCATION
02-50200          The Puerto Rico Department of Education Must Institute a Time                                              *                          1
November 14, 1997 Distribution System (SAR 36, pg. 13)
Status: Representatives from OESE, OGC and OCFO are in the process of finalizing a time distribution agreement.
02-56113                  Virgin Islands Department of Education (SAR 30, pg. 17)                                     $10,375,000                       14
February 17, 1995
Status: This audit was conducted by the Dept. of Interior OIG, and covered contracts under the Capital Improvement Program, Government of Virgin Islands.
Resolution is tied to a complex, multi-office effort coordinated by senior ED officials. A program determination letter is in OGC for review.

STUDENT FINANCIAL ASSISTANCE
02-80005      Universidad Inter Americana de Puerto Rico Needs to Improve its                                          $1,268,256                       16
July 23, 1999 Administration of Title IV Programs (SAR 39, pg. 23)
Status: On departmental administrative stay - SFA will decide upon completion of a total file review being performed by the school.
04-60147                  Review of Selected Aspects of the Kentucky Higher Education Assistance                       $1,263,251                       3
February 18, 1997         Authority's Administration of the Federal Family Education Loan Program
                          (SAR 39, pg. 9)
Status: According to OCFO, funds have been deposited to a Federal Reserve Bank. Financial Partners Channel in SFA is requesting closure. OIG has not
received this request.
06-70005                  Professional Judgment at Yale University (SAR 36, pg. 18)                                       $5,469                        3
March 13, 1998
Status: On departmental administrative stay - SFA and OIG are awaiting the outcome of another audit dealing with professional judgment that has been
appealed to the Secretary of Education.
06-70009                  Professional Judgment at University of Colorado (SAR 37, pg. 17)                               $15,082                        4
July 17, 1998
Status: On departmental administrative stay - SFA and OIG are awaiting the outcome of another audit dealing with professional judgment that has been
appealed to the Secretary of Education.
07-23545                  State of Missouri, Single Audit Two Years Ended June 30, 1991                                $1,048,768                       18
April 1, 1993
Status: This report is a single audit report prepared by State Auditor of Missouri that covered two years ended June 30, 1991. This is on departmental
administrative stay. SFA is working with OGC to resolve some issues.
07-33123                  State of Missouri, Single Audit Year Ended June 30, 1992                                      $187,530                        18
March 7, 1994
Status: This report is a single audit report prepared by State Auditor of Missouri that covered the year ended June 30, 1992. This is on departmental
administrative stay. SFA is working with OGC to resolve some issues.
09-33114          State of California, Single Audit Report Fiscal Year 1990-1991 in                                    $4,191,032                       6
December 24, 1993 Accordance with Federal OMB Circular A-128
Status: This is a single audit report prepared by Office of Auditor General, State of California that covered the period 7/1/90 to 6/30/91. Financial Partners
Channel in SFA is developing a consolidated plan to resolve this along with other overdue California single audits and OIG 09-10005 report. OIG is
awaiting a consolidated program determination letter.
09-10005           California Student Aid Commission: The Commission's Loans in                                       $41,100,000                       5
September 10, 1993 Repayment Were Overstated by $1.5 Billion (SAR 27, pg. 17)
Status:Financial Partners Channel is developing a consolidated plan to resolve this along with other overdue California single audits. OIG is awaiting
consolidated program determination letter.
09-70015          Associated Technical College (ATC) Eligibility of Institutions to                                    $8,600,000                       7
September 9, 1998 Participate in Title IV Programs & Other Issues (SAR 37, pg.16)
Status: On departmental administrative stay - SFA is in the process of reviewing additional school records to ensure consistent application of the 85/15
eligibility calculation.



         * - Non-monetary findings only.
         Note: Status comments agreed to or provided by Department.                    29
         Appendix 7



                        Unresolved Reports Issued Prior to April 1, 2000 (cont.)
Report Number/                                                  Report Title                                      Total Monetary               Number of
Date Issued                                               (Prior SAR No. and Pg.)                                    Findings               Recommendations
Reported in Previous Semiannual Report (cont.)
STUDENT FINANCIAL ASSISTANCE (cont.)
09-80023          Academy Pacific Business & Travel College Eligibility to Participate in                             $6,649,689                     3
December 21, 1998 Title IV Programs (SAR 38, pg.20)
Status: On departmental administrative stay - SFA is in the process of reviewing additional school records to ensure consistent application of the 85/15
eligibility calculation.
N04-70011         Inspection of CTI's Federal Student Financial Aid Programs                                           $67,977                       17
December 30, 1998 (SAR 38, pg. 22)
Status: This is an Inspection Report. OIG is awaiting an Audit Clearance Document and program determination letter. SFA was informed that only a
corrective action plan was needed to close this and provided a CAP to OCFO.


OFFICE OF THE CHIEF FINANCIAL OFFICER
07-80018      Audit of Title IV Wide Area Network Contract National Computer                                           $249,900                      6
May 6, 1999   Systems, Iowa City, IA (SAR 39, pg. 4)
Status: Contract and Purchasing Office of OCFO is in communication with NCS whether a refund of key charges is due the Department.
11-90004                  Review of the Grant Administrations and Payment System (GAPS)                                     *                        8
May 7, 1999               Configuration Management Process (SAR 39, pg. 4)
Status: Post Audit Group in OCFO is performing a quality review of a corrective action plan to be submitted to the OIG.
04-80009                  Assessment of Direct Loan Consolidation Program Administration and                                *                        6
May 28, 1999              Operations by EDS, Inc. Since December 1, 1997 (SAR 39, pg. 24)
Status: SFA and OCFO have agreed to resolve some of the recommendations in this report. There are three recommendations that are not being accepted
and a request will be made to OIG. OCFO will explore other recommendations and provide a response.




         * - Non-monetary findings only.
         Note: Status comments agreed to or provided by Department.                   30
                                                                                      Appendix 8

                                  Investigation Services
                              Cumulative Prosecutive Actions

            Defendant/                      Indicted/        Convicted   Sentenced   Adjudicated
             Subject                      Information                                   Value
SCHOOL CASES
Alvarez, Georgina                             X
Alvarez, Haydee                               X
Burruss, William                              X                 X
Campell, Mary Lou                             n                 X           X            $1,101
Carrandy, Mirium                              X
Case, Angela                                  X                 X
Cockrum, Helen                                n                 n           X           $82,420
Farah, Albert                                 X                 X
Fields-Ellingboe, Eva                         X                 X
Frost, Alan                                   n                 X
Frost, Ann                                    n                 X
Hall, Linda Higgs                             X                 X
Harmon, Kathryn                               X                 X
House James                                   X
Huggins, Jackie                               n                 X           X          $281,302
Jackson, Pam                                  X
Kraus, James                                  X
Lally, Thomas                                 n                 n           X          $630,894
Ortega, Adminia                               X
Sam, Osmara                                   X
Santa, Donna                                  X                 X
Snumpert-Harris, Rochelle                     X
Sumner, Toni                                  X                 X
Torres, Alina                                 X
Torres, Gabriel                               X
Torres, Marcial                               X
Strain, Daniel                                X
Trimble, Donald                               n                 n           X          $150,503
Valle, Hiran                                  X                 X
Whetstone, Edward                             X
Yun, Anna                                     n                 n           X            $8,240
TOTAL VALUE SCHOOL CASES                                                              $1,154,460


LENDER CASES
Kroeplin, William                             n                 n           X            $5,870
TOTAL VALUE LENDER CASES                                                                 $5,870




n - Action reported in previous period.
X - Action reported in current period.                  31
Appendix 8

                                  Investigation Services
                           Cumulative Prosecutive Actions (cont.)
             Defendant/                     Indicted/                                Adjudicated
                Subject                   Information        Convicted   Sentenced      Value
  SFA RECIPIENT CASES
  Akhtar, Jabir                               X
  Apple, Gail                                 X                 X           X           $64,750
  Bauldwin, Linda                             X                 X
  Baeza, Christine                            X                 X           X            $1,914
  Holloway, Bobbie                            X
  Mova, Houman                                X                 X
  Nasoori, Mashallah                          n                 n           X           $20,000
  Neal, Sherry                                X                 X           X            $5,000
  Pelsang, Daniel                             n                 X           X          $145,450
  Pelsang, James                              n                 X           X             $100
  Perkins, Lisa                               X
  Randolph-Vaughn, Cynthia                    n                 X           X            $8,160
  Salama, Badi                                X                 X
  Sanders, Barbara                            X
  Warner-Washington, Jennifer                 X
  TOTAL VALUE SFA CASES                                                                $245,374

  FOREIGN STUDY FFEL PROJECT
  Baugh, Melvin                               n                 n           X           $18,500
  Brown, Albert                               n                 n           X           $10,080
  Cortez, Conrad                              n                 n           X          $509,840
  Heidari, Alireza                            X
  Kenney, Juwan                               n                 n           X           $17,760
  Mansour, Surray                             X
  Mova, Houman                                n                 n           X           $33,000
  Vilegas, Stephan                            n                 n           X           $17,760
  TOTAL VALUE FFEL CASES                                                               $606,940

  NON-SFA CASES
  Archuleta, Debra                            X                 X
  Boulier, John                               X                 X           X           $10,000
  Buckler, Marianne                           X                 X
  McKay, Jimmy                                n                 X
  Morgan, Dennis                              X                 X
  Morgan, Lewis                               X
  Morgan, Raymond Jr.                         X                 X
  Morgan, Susan                               X
  Smith, Roy                                  n                 X
  Sweeney, Robert                             X                 X
  Wasquez, Christopher                        X                 X
  TOTAL VALUE NON-SFA CASES                                                             $10,000



n - Action reported in previous period.
X - Action reported in current period.                  32
                                                                            Appendix 8


                                  Investigation Services
                           Cumulative Prosecutive Actions (cont.)

         Defendant/                          Civil                  Adjudicated
          Subject                           Matters                    Value


         CONSULTANT AND CLIENT CASES
         Amos, Eddiel                    X                              $2,000
         Anderson, Anton                 X                              $4,940
         Brown, Lesley                   X                              $2,470
         Johnson, Natoshia               X                              $8,320
         Johnson, Stephanie              X                              $7,920
         McRay, Rashon                   X                              $4,090
         Paradise, Roalyn                X                              $3,510
         Rias, Tarlishia                 X                              $7,920
         Sappington, Tennille            X                              $3,540
         Sims, Elnora                    X                              $7,920
         Walls, Sharon                   X                              $7,298
         Washington, Marcus              X                              $5,300
         Watkins, Tanya                  X                             $21,000
         Watson, Arleseuia               X                              $2,470
         Watson, Courtney                X                              $2,581
         TOTAL VALUE CONSULTANT/CLIENT CASES                           $91,279



         CIVIL CASES
         CORUS/River Forest Bank              X                      $7,775,000
         CSC Credit Services, Inc             X                      $6,417,114
         Goings, DeAngeles                    X                         $16,540
         Qualy, Ellen                         X                         $98,778
         TOTAL VALUE CIVIL CASES                                    $14,307,432



         ASSET FORFEITURE
         Impact Aid Program                   X                      $1,657,980
         TOTAL VALUE ASSET FORFEITURE                                $1,657,980




n - Action reported previous period.
X - Action reported in current period.       33
     Appendix 9


                              Collections from Audits and Investigations
The House Report (H.R. 105-635) to accompany H.R. 4274, directs the Inspector General of the Department of
Education to submit reports detailing recoveries and savings generated by its work. The following tables reflect that
information.

AUDIT
        Reports                  Reports Recommended
      Issued With Quest/Unsupp Quest/UnsuppQuest/Unsupp Management Write-Offs Collected/
  FY Quest/UnsuppRecommended Resolved        Resolved    Decision Adjustments Recovered                                 Balance

1998            11           $17,011,401              8          $6,162,004       $1,671,959    $0      $1,671,959        $0

1999            11           $69,804,793              8          $61,761,748      $32,631,082   $0        $22,215    $32,608,867

2000            21           $73,056,107              2          $54,724,994      $60,633,994   $0      $1,600,000 $59,033,994

Total           43         $159,872,301             18          $122,648,746 $94,937,035        $0      $3,294,174 $91,642,861




INVESTIGATION
                                Fines, Restitutions,                  Amount Collected          Amount Collected        Amount
  FY         Cases*         Settlements and Judgments                  Current Period            Prior Period(s)        Collected

1998           293                   $48,208,055                             $368,764            $30,805,609         $31,174,373

1999           133                   $19,154,906                             $55,095             $7,025,578          $7,080,673

2000           100                   $37,311,157                             $21,082                 $6,565             $27,647

Total          526                  $104,674,118                             $444,941            $37,837,752         $38,282,693




* Number of cases for which collection was ordered during the fiscal year.




                                                                             34
                                                                                                Appendix 10


                                             Statistical Profile
                                        April 1 - September 30, 2000
                                                                                Six-month               Fiscal
                                                                            Period Ending         Year Ending
                                                                                   9/30/00             9/30/00

OIG AUDIT REPORTS ISSUED                                                               34                  55
Questioned Costs                                                               $9,144,843         $71,846,767
Unsupported Costs                                                               $206,053            $206,053
Recommendations for Better Use of Funds                                               $0           $4,600,000

OTHER OIG PRODUCTS
 (Inspections, Action Memoranda, Information Reports, Advisory Reports,
 Special Studies, and Field Pricing Reviews)                                           28                     38

OIG AUDIT REPORTS RESOLVED BY PROGRAM MANAGERS                                         18                  38
Questioned Costs Sustained                                                    $63,135,452         $63,252,725
Unsupported Costs Sustained                                                           $0          $23,572,341
Additional Disallowances Identified by Program Managers                         $585,235            $683,066
Management Commitment to the Better Use of Funds                              $34,500,000         $34,500,000

INVESTIGATIVE CASE ACTIVITY
Cases Open                                                                            129                 239
Cases Closed                                                                          108                 195
Cases Active at End of Period                                                         362                 362
Prosecutorial Decisions                                                                62                 113
  -Accepted                                                                            55                  98
  -Declined                                                                             7                  15

INVESTIGATION RESULTS
Indictments/Information                                                               36 1                  71
Convictions/Pleas                                                                      36                   60
Fines Ordered                                                                    $12,200              $13,500
Restitution Payments Ordered                                                  $1,699,988          $14,588,708
Civil Settlement/Judgments                                                             50 2                   74
                                                                                            3
Civil Settlement/Judgments                                                   $14,626,038          $14,933,949
Savings                                                                       $3,859,473           $4,530,559



1
  Includes 2 cases that were not reported in the last semiannual report.
2
  Includes 28 cases that were not reported in the last semiannual report.
3
  Includes $204,847 that was not reported in the last semiannual report.




                                                                       35
